*
Supreme Court, U.S.
FILED

20-7641

No.

MAR 0 8 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

HAWKINS
(Your Name)

— PETITIONER

vs.
SHOOP

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. Disb. Ct. for the Southern Dist. of Ohio, Western Div. at Dayton
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Brian Hawkins
(Your Name)
P.O. Box 5500
(Address)
Chillicothe, Ohio 45601
(City, State, Zip Code)
N/A
(Phone Number) || M j&Y f

wm

»

QUESTION(S) PRESENTED
1.

Has the trial court erred by adding a credibility analysis

to an unjustifiable pre-indictment delay test of Due Process
prescribed by United States v. Lovasco, 431 U.S. 783 (1977)?

2.

What amount of prejudice must be demonstrated for a Due

Process violation, when there is an unjustifiable reason for a
preindictment delay?

3.

Has the State's post - delay

"intentional devise to gain

tactical advantage over the accused," which prejudiced him,
amount to a Due Process violation?

i

LIST OF PARTIES
KtALL parties appear in the caption of the case on the cover page. [] ALL parties d> rot appear in the caption of the case cn tie cover page. A list of
all parties to tie proceeding in the court whose judgment is the subject of this
petition is as follows: N/A

RELATED GASES
• State v. Hawkins, 2015-CRt.1099, Court of Common Pleas of Montgomery
County, Ohio. Trial court's decisions on:
Motion to dismiss, entered on Oct. 5, 2015;
Jury trial'Verdict Dec.1 17, 2015, entered'Dec. 21, 2015;.
Termination and Sentencing Entry Feb. 4, 2016, entered Feb. 5, 2016.
• State v. Hawkins, 2018-0hio-867, Ohio Court of Appeals, 2nd Appellate
District. Judgment of trial court Affirmed, entered Mar. 9, 2018.
• Hawkins v. Shoop, 2019 U.S. Dist. LEXIS 208878, U.S. Dist. Gourt for
the Southern District of Ohio, Western Division at Dayton. Magistrate
Judge's Report and Recommendations, Dec. 4, 2019.

• Hawkins v. Shoop, 2019 U.S. Dist. LEXIS 221232, U.S. Dist. Ct. S.D.
OH, W.Div. at Dayton. Judge's'Recommittal Order, Dec. 20, 1019.
ii

RELATED CASES CONTINUED

;■

•

Hawkins v. Shoop, 2019 U.S. Dist LEXIS 221475, U.S. Dist. Ct. S.D.
OH, W. Div. at Dayton. Magistrate Judge's Supplemental Report and
Recommendations, Dec. 26, 2019.

• Hawkins v. Shoop, 2020 U.S. Dist. LEXIS 27048, U.S. Dist. Ct. S.D.
OH, W. Div. at Dayton. Magistrate Judge's Order Denying Discovery and
Expansion of Record, Feb. 18, 2020.
• Hawkins v. Shoop, 2020 U.S. Dist. LEXIS 42090, U.S. Dist. Ct. S.D.
OH, W. Div. at Dayton. Judge's Decision and Order Adopting Report and
Recommendations, Mar. 11, 2020.

• Hawkins v. Shoop, 2020 U.S. App. LEXIS 25379, U.S. Court of Appeals
Sixth Circuit. Order Denying COA, Aug. 10, 2020.

• Hawkins v. Shoop, 2020 U.S. App. LEXIS 32266, U.S. Court of Appeals,
Sixth Circuit. Rehearing ^Denied,- Oct. 13, 2020.

iii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A Oct. 5, 2015, TRIAL COURT DECISION ON MOTION TO DISMISS
APPENDIX B Dec. 21, 2015, TRIAL COURT VERDICT ENTRY
APPENDIX C Feh 5, 2016, TRIAL COURT TERMINATION AND SENTENCING ENTRY
APPENDIX D Mar. 9, 2018, OHIO COURT OF APPEALS OPINION
APPENDIX E Dec. 4, 2019, U.S. DIST. COURT REPORT AND RECOMMENDATION
APPENDIX F Dec. 20, 2019, U.S. DIST. COURT RECOMMITTAL ORDER
APPENDIX G Dec. 26, 2019, U.S. DIST. COURT SUPPLEMENTAL REPORT AND RECOM.
APPENDIX H Feb. 18, 2020, U.S. DIST. COURT DECISION AND ORDER ON DISCOVERY

IV

INDEX TO APPENDICES CONTINUED
APPENDIX I Man 11, 2020, U.S. DIST. COURT DECISION AND ORDER
APPENDIX- J Aug. 10, 2020, U.S. COURT OF APPEALS, SIXTH CIRCUIT ORDER
APPENDIX K Oct. 13, 2020, U.S. COURT OF APPEALS,' SIXTH CIRCUIT R’HRNG ORDER

i

v

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
United States v. Lovasco, 431 U.S. 783 (1977)

7

United States v. Marion, 404 U.S. 307 (1971)

7

Hoo v. United States, 484 U.S. 1035 (1988)

8

Donnelly v. DeChristoforo, 416 U.S. 637 (1974)

12

United States v. Young, 470 U.S. 1 (1985) . .

16

United States v. Ray, 578 F.3d 184 (2nd Cir. 2009)

8

....

United States v. Sebetich, 776 F.2d 412 (3rd Cir. 1985) .

.

8

United States v. Uribe-Rios, 558 F.3d 347 (4th Cir. 2009)

.

9

United States v. Crouch, 84 F.3d 1497 (5th Cir. 1996) . .

9

United States v. Ross > 123 F.3d 1181 (9th Cir. 1997)

8

. .

United States v. DeJesus Corona-Verbera,
9

509 F.3d 1105 (9th Cir. 2007)
United States v. Radmall > 591 F. 2d 548 (10th Cir. 1978) . .

9

United States v. Sabath, 990 F.Supp. 1007 (Ill. N.D. 1998) . . 13
United States v. Santiago, 987 F.Supp.2d 465 (N.Y. S.D. 2013) . 14
State v. Jones, 148 Ohio St.3d 167 (2016)........................

11

State v. Luck, 15 Ohio St.3d 150 (1984) ............................

11

State v. New > 2013-0hio-3193 (9th Dist. COA)

... . .

13

State v. Keenan^' 2013-0hio-4029 (8th Dist. COA) ....

13

State v. Willingham, 2019-0hio-1892 (8th Dist. COA) .... 13
State v. Bourne, 2019-0hio-2327 (8th Dist. COA)

13

STATUTES
USCS Constitution Amendment Five

7

USCS Constitution Amendment Fourteen

7

vi

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix - J
the petition and is
[X] reported at 2020 U.S. App. LEXIS 25379
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

1

[X] reported at 2020 U.S. Dist. -LEXIS' 42090
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided mv case
was August 10, 2020
[ ] No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: —October 13, 2020
, and a copy of the
order denying rehearing appears at Appendix___H
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______ _
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
USCS Constitution Amendment Five
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in
the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without
just compensation.

USCS Constitution Amendment Fourteen
Sec. 1. [Citizens of the United States.] All persons born or
naturalized in the United States

and subject to the jurisdiction,

thereof, are citizens of the United States wherein they reside.
No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty

or property,

without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

3.

STATEMENT OF THE CASE

Statement of the facts
On July 30, 2002, A.J. reported an alleged rape to police.
Subsequently, she was taken to the hospital where a rape kit was
performed and sent to crime lab for analysis. Detective Carol
Ewing, the original detective, interviewed A.J. on August 1

2002.

A.J. identified Hawkins on August 6, 2002, based on information
from her friends. (Page ID 1903-05)
On October 29, 2002, Detective Ewing interviewed Hawkins at
his home, because he was recovering from being shot and memory
loss. Detective Ewing only provided a name and a detail of the
allegation, but no picture of A.J., and Hawkins did not recognize
the name and denied the allegation. (Page ID 1859, 1905)
Detective Ewing obtained a court order for Hawkins

DNA on

October 23, 2003. A different detective obtained his DNA in
December of 2003

as Detective Ewing was on restricted duty, and

retired on February 2 , 2004. In March of 2004, a crime lab report
identified Hawkinss

DNA. as a match. According to the prosecutor's

presentation, the case laid dormant for eleven years. (Page ID
1907-08, 1915-16)
Detective Dulaney interviewed Hawkins in May of 2015. He
was shown two pictures of A.J.

one when she was 18-years-old

(three-plus years after the allegation date), and the other in
2013 (eleven-years after the allegation date), thus neither
picture depicted her as she was when the allegation occurred.
(Page ID 1933-34)

4.

After Hawkins reviewed the police report, he realized the
allegations involved "Shoop," he recognized it as the stranger
he had met on Shoop with whom he had consensual intercourse in
2002, and he was forthcoming with the events of the night, but
he did not know their name. (Page ID 1845-47, 1864, 1882-83)
Hawkins asserted that the pre-indictment delay violated his
due process rights, as it caused several witnesses to become
unavailable that could have verified his version of events.
Hawkins was prevented from asserting an additional exculpatory
witness whom had also now become deceased, Detective Phil Olinger
the last detective to investigate and resolve the case, before
the eleven-year delay. (Page ID 89-90, 1968)
Although subpeonaed to testify at the Motion to Dismiss,
A.J. failed to show. (Page ID 1942-44)
Statement of the Procedure
Hawkins was indicted May 11, 2015. (Page ID 73)
Hawkins was re-indicted July 22

2015. (Page ID 85)

Hawkins filed a Motion to Dismiss June 2, 2015L (Page ID 75)
Trial court held Evidentiary Hearing July 23, and August 19,
2015, and permitted briefs from the parties. (Page ID 87, ‘.92, 1835);
Trial court overrule MTD on October 5.

2015. (Page ID 103)

The matter was presented to a jury on December 14

2015,

and found Hawkins guilty on two counts. (Page ID 1556-57)
Hawkins timely appealed February 19, 2016. (Page ID 143)
Hawkins- .filed !a.’Post-Conviction Petition January 4, 2017.
(Page ID 692)
The appellate court affirmed the judgment of trial court on
5.

and denied Post-Conviction Petition at the same time, without
findings of fact or conclusions of law, on March 9, 2018. State
v. Hawkins. 2018 Ohio App. LEXIS 917.
Hawkins motioned for reconsideration March 19, 2018, which
was overruled April 12, 2018. (Page ID 355, 364, 374)
Hawkins appealed to Ohio Supreme Court May 24, 2018, and.
the court declined jurisdiction August 1, 2018. (Page ID 409);
State v. Hawkins, 103 N.E. 3d 831 (Ohio 2018).
Hawkins filed an Application for reopening Appeal June 11,
2018. However, the Clerk of Court filed with a false cover page,
resulting in dismissal because of Clerk's error. Hawkins then
moved to reinstate his filing under correct case number, which
appellate court denied. Hawkins filed Delayed Application for
Reopening July 11, 2018

also denied by appellate court, and

subsequently the Clerk of Supreme Court of Ohio refused to file.
(Page ID 2302-03)
Hawkins filed timely Petition for Writ of Habeas Corpus
March 11, 2019. (Doc. 3) Federal District Court denied March 11,
2020. Hawkins v. Shoop, 2020 U.S. Dist. LEXIS 42090.
Hawkins timely appealed to the Federal Sixth Circuit Court
of Appeals on April 9, 2020. The Sixth Circuit denied Application
for C0A on August 10, 2020. Hawkins v. Shoop, 2020 U.S. App.
LEXIS 25397.
Hawkins timely requested rehearing on his Application for
COA, which the Sixth Circuit denied on October 13, 2020.
Hawkins v. Shoop, 2020 U.S. App. LEXIS 32266.
6.

REASONS FOR GRANTING THE PETITION
It is well established that dismissal of a case is required
by the Due Process Clause when pre-accusation delay results in
prejudice to a defendant's right to a fair trial

if the "delay

was an intentional devise to gain tactical advantage over the
[defendant]." United States v. Lovasco, 431 U.S. 783,. 788-89 (1977).
However

with respect to the prejudice inquiry

the exact

amount of prejudice that must be demonstrated for a due process
violation to be recognized is unclear. Additionally, it is unclear
whether prevailing on a claim must be strictly "an intentional
device to gain a tactical advantage" by the government, or
whether simple negligence of, the government, recklessness on the
part of the government, investigative delay from.the:government,
or lack of law enforcement and government resources may suffice.
The Supreme Court did not directly answer that question in United
States v. Marion, 404 U.S. 307 (1971). And in Lovasco, the Court
did introduce a few additional principles, but it did not fully
clarify the level of prejudice required and again refrained from
explicitly stating whether something less could lead to a
successful claim, instead leaving it to the lower courts to
decide on a case by case basis. Marion, 404 U.S., at 324-25.
A Call for Supreme Court Action
to Further Analyze Pre-Accusation Delay
The Supreme Court has never clearly established a definitive
test for evaluating due process claims premised on pre-indictment
delay, "leaving it for the lower courts to decide on a case by
case basis." Marion, 404 U.S., at 324-25.
7.

The Supreme Court has never clearly held that governmental
negligence would suffice to satisfy a test for due process
violation based on pre-indictment delay. Given that the Supreme
Court left it to the lower courts to make such determination, it
follows that the lower courts created their own standards.
However, the circuits are split as to the proper test for claims
of pre-indictment delay, particularly as to whether mere
negligence by the government could ever give rise to a due
process claim. See. i.e., United States v. Ray, 578 F.3d 184, 186,
200 (2nd Cir. 2009)(finding neutral reason, such as negligence
weighs against the government); United States v. Sebetich, 776
F.2d 412, 430 (3rd Cir. 1985) (government mixup falling closer to
negligence, but not addressing prejudice as no showing of
intentional delay); United States v. Ross, 123 F.3d 1181, 1186 (9th
Cir. 1997)(Mpreindictment delay that results from negligence or
worse may violate due process").
The Supreme Court noted such a split when it denied
certiorari in Hoo v. United States, 484 U.S. 1035, 1036 (1988) (White,
J., dissenting), saying

"exemplifying the significant disagree-

ment in the lower courts over the proper test, panels in the
Fifth and Seventh Circuits have acknowledged conflicts between
decisions from their own circuits on this issue." The Court did
not establish a definitive rule to alleviate this circuit split,
but it did note that,' "The continuing conflict amongst the
Circuits on this important question of constitutional law requires
resolution by this Court." Id.
Where the gap really comes into play with regards to the
8.

lower courts

interpretations of Marion and Lovasco, is how

those courts examine the government's reasons for the delay,
typically under prong two of the due process test for pre­
accusation delay. After finding actual prejudice, "consider[ing]
the reasons for the delay as well as prejudice to the accused"
is also necessary. See United States v. Crouch, 84 F.3d 1497, 1510
(5th Cir. 1996)(steadfast in its position, the Fifth Circuit said,
"that neither Marion nor Lovasco is crystal clear on this issue,
and each opinion contains some language that can give comfort to
either view."). Additionally, the delay must "violate[] those
fundamental conceptions of justice which lie at the base of our
civil and political institutions,

and which define 'the community's

sense of fair play and decency.'" Lovasco, 431 U.S., at 790.
At present, the majority of circuits employ the narrow twoprong test. Only the Fourth and Ninth Circuits use a different
test that balances government conduct against prejudice suffered
by the accused. See i.e., United States v. Uribe-Rios, 558 F.3d 347,
358 (4th Cir. 2009); United States v. Dejesus Corona-Verbera, 509 F.3d
1105, 1112 (9th Cir. 2007).
It is significant that the Ninth Circuit reasoned, "pre­
indictment delay that results from negligence or worse may violate
due process." United States v. Ross, 123 F.3d 1181, 1186 (9thCir. 1997).
Disunity even persists within circuits themselves, as seen by
Judge McKay of the Tenth Circuit, who articulated his distaste
of the two-prong test used by his circuit as being "excessively
narrow." United States v. Radmall, 591 F.2d 548, 522 (10th Cir. 1978)
(McKay, J., dissenting). And he added that, the Supreme Court failed
9.

to exclude constitutional reasons other than intentional delay
or harrassment, leaving it instead to the lower courts to decide..
But, by adhering to the narrow interpretation of Marion, circuits
adopting the narrow rule would be unable to consider other types
of delays that may violate the Fifth Amendment. Judge McKray also
reasoned that finding intentional delay requires an inquiry into
the government's subjective motives for the delay - an inquiry
which can be easily refuted.
If Marion and Lovasco would have created clearly established
precedent, there would not be a circuit split in the first place.
With the Marion and Lovasco decisions being nearly a half century
ago, the time has come for the Supreme Court to decide the proper
standard to employ when an appellant claims he was prejudiced by
a pre-indictment delay that resulted solely from governmental
negligence, and what concretely constitutes prejudice.

Prejudice in the Present Case
The trial court found the State did.Not have a justifiable
reason for the thirteen-year delay in prosecuting. Therefore, the
pertinent questions before this Court balance on how much :
prejudice the Petitioner has suffered, and has his Due Process
rights been violated because of the prejudice.
The State and lower Federal courts failed to consider all of
pertinent facts.affecting decisions in this case. Specifically,
the prosecution used "missing case-file," death of witnesses, and
manipulated evidence as POST-intentional devices to gain tactical
advantage over the Petitioner.
10.

Relevant to the First question presented to this Court, the
Ohio Supreme Court said, "[W]e have firmly established a burden
shifting framework for analyzing a due-process claim based on
preindictment delay. Once a defendant presents evidence of actual
prejudice, the burden shifts to the state to produce evidence of
a justifiable reason for the delay." State v. Jones, 148 Ohio St.3d
167, 170 (2016)(citing cases omitted, based on United States v. Marion,
404 U.S. 307 (1971); and United States v. Lovasco, 431 U.S. 783 (1977)).
To demonstrate prejudice, the defendant must establish the
exculpatory value of the alleged missing evidence. The Ohio
Supreme Court said, "[W]e have held that a defendant may. establish
actual prejudice where he is unable to seek verification of his
or her story from a deceased witness. Luck, at 157. Luck
demonstrates that a defendant need not know what the exact
substance of an unavailable witness's testimony would have been
to establish actual prejudice based on the witness's unavailability.
Actual prejudice exists when missing evidence or unavailable
testimony, identified by the defendant and relevant to the defense,
would minimize or eliminate the impact of the state's evidence
and bolster the defense. Id. at 157-58." State v. Jones, 148 Ohio St.
3d 167, 174, citing State v. Luck, 15 Ohio St.3d 150 (1984).
However, the trial judge added a credibility determination
to the legal framework established by the Ohio Supreme Court for
analysis of due process violations of preindictment delay. On the
one hand, the trial judge admits that "the testimony lost by
virtue of Moochie's and Toni Ousley's deaths would, despite
11.

certain evidentiary issues, have exculpatory value." Yet, the
trial judge used circular reasoning by denying the very evidence
that would exculpate, based on credibility while not considering
all of the facts affecting credibility. (Doc. 10, Page ID 111, ftnt.)
The prosecution skewed evidence regarding Petitioner's
credibility, by impermissibly vouching to Petitioner's timing of
a changed story - only after and because of finding out about a
DNA match. (Doc. 10., Page ID 1929, 1934) However, this is.
manipulative of the evidence. In 2015, when Detective Dulaney
renewed investigation, she presented unrecognizable name and
pictures of complainant to Petitioner. (Doc. 10, Page ID 1859-61,
1879, 1929, 1933-34, 1937) Petitioner expressed thei 2002 casei • ;
had been resolved- by Chief Detective Olinger, who is now deceased.
(Doc. 10, Page ID 1209) Petitioner thought that case had been
resolved, and that this was a different accuser. When Petitioner
found out this accusor was the person he had met on Shoop at the
after-hour-joint, it was then that he realized it was the same
accuser from which he had thought was a resolved case. (Doc. 10,
Page ID 1846, 1882-83) Manipulation can affect the jury. See
Donnelly v. DeChristoforo, 416 U.S. 637, 647 (1974).
Petitioner Motioned to Federal District Court for Discovery
and Expansion of the Record, to include,, among other things

the

2015 DVD interview with Detective Dulaney, which content confirms
Petitioner's credibility that he, in fact, did know about his DNA
match before the extended delay. (Doc. 10, Page ID 1937) And,
that Prosecution's argument wrongly manipulated the evidence to
12.

show Petitioner only found out about DNA evidence just prior to
Motion to Dismiss hearing. (Doc. 26, Page ID 2415-19)
However, District Court denied, further prejudicing Petitioner
of his right to due process because the DVD video interview with
Detective Dulaney will restore Petitioner's credibility and will
damage state's credibility - revealing state's post intentional
devise to gain tactical advantage over Petitioner, (Doc. • 2.7,- Page
ID 2434-38) because state did not show DVD, to court.
Relevant to the facts of Petitioner's case, he now asks his
First question of this Court: Has the trial court erred by adding
a credibility analysis to an unjustifiable pre-indictment delay
test of Due Process prescribed by United States v. ;Lovasco, 431
U.S. 783 (1977).
Next as to the second question, Petitioner is prejudiced
because he could not question Olinger, the last known detective
investigating the case - prior to the delay - to verify that the
case had been resolved. (Doc. 10, Page ID 1209) Several courts
have found the loss of law enforcement witnesses to'be prejudicial.
See United States v. Sabath, 990 F.Supp. 1007/ 1011 (ill.N.D. 1998)
(loss of special agent significant); State v. New, 2013-Qhio3193, 5118 (9th Dist. COA) (prejudiced by death of investigator,
among other things); State v. Keenan, 2013-0hio-4029, 1127 (8th
Dist". COA) (witnesses of importance deceased, including detective);
State, v.. Willingham, 2019-0hio-1892, 1137 (8th Dist. COA)
(defendant prejudiced by passing of investigator).
Further prejudicing Petitioner is the loss of original casefile packet, which could have helped to prove Olinger's part in
13.

investigation clearing Petitioner of charges. The prosecution
argued that, "We actually cannot find, not lost, we actually
cannot find just the [original case file] packet." (Doc, 10, Page
ID 997-99, 1218-19

1228-29, 1911-12, 1932-33, 1936) Yet, never

does prosecution produce original case-file packet

nor do they

produce Detective Olinger's case-file packet. Courts have found
missing case files can be prejudicial and significant. See State
v. Bourne, 2019-0hio-2327, fl!5 (8th Dist. COA)(notes in original
case file could have minimized or eliminated the impact of
state's evidence); United States v. Santiago. 987 F.Supp.2d 465,
485 (N.Y. S.D.C. 2013)(Actual prejudice in the context of Marion/
Lovasco paradigm generally means the loss of documentary evidence
or the unavailability of a key witness).
Petitioner again reiterates that he motioned the Federal
District Court for Discovery and Expansion of the Record. His
request included the original case-file packet and Detective
Olinger's case-file packet. (Doc. 26, Page ID 2414-15) Contents
of these case-file packets are relevant.to Detective Olinger's
or other detectives' further investigation of case - prior to
delay - showing resolution of the case. And thus, affecting the
positive affect toward Petitioner's credibility and negative
impact upon prosecution credibility - in deceiving and manipulation.
Again, the District Court denied, further prejudicing the
Petitioner of evidence that.-the. state used post intentional
devises to gain tactical advantage over the Petitioner. (Doc. 27,
Page ID 2434-38)
Petitioner now asks his Second question to this Court:
14.

What amount of prejudice must be demonstrated for a Due Process
violation, when there is an unjustifiable reason for a pre­
indictment delay?
Finally, in regards to the last question, the state
capitalized by deception at Motion to Dismiss hearing, which is
only evident by comparing later testimony at trial. During MTD,
Detective Ewing, who retired before DNA results were returned
from lab, testified to "Not” knowing whether investigation was
done after getting court order to obtain DNA from Petitioner.
(Doc. 10, Page ID 1916) Later during trial, Detective Ewing
testified that further investigation "Was" done, when she filled
out property card and her partner - Chief DetectivetOlinger, who
is now deceased (Docfe 10, Page ID 1209) - went to collect DNA
from Petitioner and then submitted to crime lab. (Doc. 10, Page
ID 1207) This significantly prejudices Petitioner by detracting
from the fact that more investigation was done after Detective
Ewing retired, to the point of resolution of the case. But/, " the
last one to investigate the case is now deceased, and the
original case-file packet mysteriously cannot be found to verify
the final investigation done before the delay. (Doc. 10, Page ID
997-99, 1218-19, 1228-29, 1911-12, 1932-33, 1936) Manipulation
can affect the jury. See Donnelly v. DeChristoforo, 416 U.S.
637, 647 (1974).
Then, prosecution attacked Petitioner's credibility by
vouching that the DNA swab was taken from Petitioner at his home
after Petitioner testified to DNA swab being taken from him in
15.

jail. (Doc. 10, Page ID 1535, compare Page ID 1470-71) But the
jailhouse records verify that Petitioner was indeed in jail when
the DNA swab was taken. (iJoc. 10, Page ID 2104-07) United States
v. Young, 470 U.S.-1, 18-19-(1985) (prosecutorial vouching improper);
Donnelly v. DeChristoforo, 416 U.S. 637, 647 (1974)(manipulation
can affect the jury).
Also at MTD, Detective Dulaney testified that complainant
was able to remember the facts that occurred that night, and “she
was very surprised and she remembered and was able to provide
some information." (Doc. 10, Page ID 1052) However at trial, the
complainant testified that, "I didn't" remember any of that, and
still don't have a very clear recollection of what happened that
night. (Doc. 10, Page ID 1052, 1625-26) Petitioner suffered prejudice
from the complainant not showing to testify at MTD hearing. Had
the complainant testified at hearing as she did at trial - that
she did not remember, the. case

then, the.result would, be .different.

Because the state misrepresented evidence at MTD hearing in
order to proceed to trial, and such misrepresentation only became
evident in subsequent trial testimony, and because prosecution
skewed evidence regarding:Petitioner's credibility, and because
prosecution avoided presenting the original case-file packet,
the Petitioner now asks his Third question to this Court:
Has the State's post-delay "intentional-devise to gain tactical
advantage over the accused," which prejudiced him, amount to a
Due Process violation?

16.

CONCLUSION
The Petition for a writ of certiorari should be granted, in
order to resolve Federal Circuit Court split regarding pre­
indictment delay. Petitioner asks for the answers to his
questions be applied to his case, and grant him all relief this
Court finds necessary under the constitution and laws of the
United States, as this Court interprets.
Respectfully submitted,
r

Brian Hawkins', Petitioner-Pro se
Date: Tuesday March 2, 2021

17.

